REVIEW OF THE FEDERAL ACQUISITION SERVICE'S

          CLIENT SUPPORT CENTER

        SOUTHEAST SUN BELT REGION

     REPORT NUMBER A090139/Q/4/P10004


                June 4,2010

             u.s.   GENERAL SERVICES ADMINISTRATION
              Office of Inspector General




Date:	       June 4,2010

Reply to     Elizabeth Telo

Attn of:     Audit Manager, Southeast Sunbelt Region Field Audit Office (JA-4)


Subject:	    Review of the Federal Acquisition Service's Client Support Center ­
             Southeast Sunbelt Region
             Report Number A090139/Q/4/P1 0004

To:	         William A. Sisk, Regional Commissioner, Federal Acquisition Service (4Q)


Background

This report presents the results of the Office of Inspector General's audit of the Federal
Acquisition Service (FAS) Client Support Center in the Southeast Sunbelt Region
(Southeast Sunbelt CSC). As directed in The National Defense Authorization Act for
Fiscal Year 2008, Public Law 110-181, the Inspectors General of the U.S. Department
of Defense (000) and General Services Administration (GSA) are to report whether
GSA is or is not complying with laws and regulations applicable to 000 procurements.

Objective, Scope, and Methodology

Our objective was to assess whether the policies, procedures, and internal controls of
the Southeast Sunbelt CSC are administered in a manner compliant with the Federal
Acquisition Regulation (FAR) and Defense procurement requirements.

To accomplish our objective, we analyzed 2 stratified random samples of procurement
actions for services greater than $100,000 executed between June 1, 2008 and March
31, 2009; and April 1, 2009 and September 30, 2009, respectively. For those same
time periods, we also analyzed 2 judgmental samples of modifications placed against
existing procurement actions. For the Southeast Sunbelt CSC, our samples included 16
new awards valued at $43 million and 4 modifications to existing orders valued at $36.9
million.

We conducted the audit from July 2009 through March 2010 in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.



                    401 West Peachtree Street, NW, Room 1701, Atlanta, GA 30308

                            Federal Recycling Program   -0

                                                          Printed on Recycled Paper
Results of Audit

Overall, we found the Southeast Sunbelt CSC compliant with the FAR and Defense
procurement requirements 1. We noted that the Region has implemented national
controls to improve its overall contracting practices. However, we identified minor
deficiencies that present an opportunity for improvement in the task order award and
administration processes.

Minor Deficiencies - Task Order Award

During our review, we identified isolated instances of improper task order award
practices, including:

    •	 One instance in which a Time and Materials (T&M) task order did not have a
       ceiling price. In accordance with FAR 16.6, a T&M task order may only be used
       if the contract includes a ceiling price that the contractor exceeds at his own risk.
       Given that a T&M task provides no positive profit incentive to the contractor for
       cost control or labor efficiency, the Southeast Sunbelt CSC should ensure that all
       T&M task orders include a ceiling price to manage this risk.

    •	 One instance in which the task-specific Interagency Agreement (IA) was not
       signed by FAS officials prior to task order award date. Per the lA, the agreement
       becomes effective when signed by both the FAS and the Client. The Southeast
       Sunbelt CSC should be diligent in ensuring that all required elements, including
       signatures, are part of lAs.

    •	 One instance in which the Independent Government Estimate (IGE) was not
       independently prepared. The IGE found in the task order file was the same as
       the contractor's proposal.  This was a sole source task order, and the
       Determinations and Findings stated that the determination of price
       reasonableness was based upon comparison to the IGE. Given that the IGE was
       not independent and was used as the only basis of price reasonableness, there
       is no assurance that the task order price was fair and reasonable.        The
       Southeast Sun belt CSC should ensure that all IGEs used to evaluate price
       reasonableness are independent.

    •	 One instance in which the winning proposal priced three labor rates over the
       GSA schedule rates. These higher rates were then used for billing, resulting in
       the Government being overcharged for the services. In accordance with FAR
       8.404, schedule rates are already determined to be fair and reasonable by GSA.
       Therefore, in using rates above schedule rates, there is no assurance the price is
       fair and reasonable. The Southeast Sunbelt CSC should ensure that all price


1 For the purposes of this audit report, we will be reporting on the issues that have been determined to be
within the responsibility of FAS. The DoD Office of Inspector General will be reporting on those issues
that are attributable to the DoD under separate cover.




                                                     2

      proposals are evaluated thoroughly and that proposed labor rates are compared
      to negotiated contract rates.

   •	 Three instances in which improper General and Administrative (G&A) expenses
      were accepted. Although the Performance Work Statements explicitly stated that
      G&A expenses were not allowed, proposals including G&A were accepted and
      invoices including G&A were paid.          In all three cases, this resulted in
      modifications being issued to clarify requirements. The Southeast Sunbelt CSC
      should ensure that all proposals are evaluated based on requirements in the
      solicitation documents to ensure that only allowable costs are included.

Minor Deficiencies - Task Order Administration

During our review, we identified isolated instances of improper task order administration
practices, including:

   •	 One instance in which the task order did not contain a Contracting Officer
      Technical Representative (COTR) training certificate. By memorandum dated
      November 26, 2007, all COTRs appointed after the effective date are required to
      attain certification no later than six months from their date of appointment. To
      ensure that proper contract administration occurs, a COTR should be assigned
      and trained to perform his or her duties in a timely manner.

   •	 One instance in which travel was invoiced as a lump sum rather than an itemized
      cost and charged a higher than approved G&A rate. Per the task order's
      Performance Work Statement, charges shall be identified by a narrative
      description of the services performed and travel shall be itemized by individual
      and trip. Presenting the travel and ODCs as a lump sum does not allow the
      person accepting the invoice to determine the basis for the billed costs and
      confirm that the amounts are correct based on the services performed. The
      contractor credited the overcharge amount to the government in the following
      invoice. Contractors' invoices should be thoroughly reviewed prior to acceptance
      to ensure that pricing is in accordance with the proposal and that the
      documentation supports the costs incurred in conjunction with the specific tasks
      and terms and conditions of the contract.

Management Comments

On May 26, 2010, the Regional Commissioner of the Southeast Sunbelt Region
concurred with this report. Management's written comments are included in their
entirety as Appendix A.

Internal Controls

We assessed the internal controls relevant to the Southeast Sunbelt CSC procurements
to assure that they were made in accordance with the FAR, Defense procurement




                                           3

    requirements, and the terms and conditions of the contracts utilized. The Southeast
    Sunbelt esc needs to continue its commitment to effective controls over procurement
    processes.

    If you have any questions regarding this report, please contact me at (404) 224-2227.



r   ~dAfJ~
    Elizabeth Telo

    Audit Manager

    Southeast Sunbelt Region


    Attachments




                                               4

            REVIEW OF FEDERAL ACQUISITION SERVICE'S

                    CLIENT SUPPORT CENTER

                  SOUTHEAST SUNBELT REGION

               REPORT NUMBER A090139/Q/4/P1 0004


                      MANAGEMENT COMMENTS


II'
May 26, 2010
                                               GSA Southea.t Sunbelt Region




MEMORANDUM FOR	 JAMES D. DUERRE
                REGIONAL INSPECTOR GENERAL FOR AUDITING
                SOUTHEAST SUNBELT REGION FIELD AUDIT
                OFFICE IJA-4)	           ~,(JjI

FROM:	           WILLIAM   A,   SIS~C-{)J ~
               jJLREGIONAL COMMISSIONER (4Q)


SUBJECT:	        Review of the Federal Acquisition Service's
                 Client Support Center - Southeast Sunbelt Region
                 Report Number A090139-3


Thank you for the opportunity to review the subject audit
report. The findings presented in this and earlier reports
continue to be helpful in ensuring that management controls and
tests of controls are adequate to provide assurances that our
Client Support Centers (CSC) are conducting procurements in
accordance with Federal Acquisition Regulations (FAR) and
contract terms	 and conditions.

We concur with the findings of the audit and while we remain
fully committed to strengthening existing controls and
implementing new controls when needed. We are pleased that the
audit team acknowledged that recently implemented national
controls were effective in improving our procurement process and
compliance with the FAR.

Again, we appreciate the opportunity to review this important
audit. Your findings affirm that our team has had success in
implementing and adhering to management controls to assure that
esc acquisition processes are appropriate and compliant with the
FAR and contract terms and conditions. Prompt implementation of
additional controls to address the audit findings is vital to



                                               U.S. Gelltrall.rvlcel Admlnlatratlon
                                               401 Welt Peachlree Stree.. NW
                                               Atlanlll, GA 30308
                                               wwwgsa.gov




                                    A-1
         REVIEW OF FEDERAL ACQUISITION SERVICE'S

                 CLIENT SUPPORT CENTER

               SOUTHEAST SUN BELT REGION

            REPORT NUMBER A090139/Q/4/P1 0004


                   MANAGEMENT COMMENTS

                              - 2 ­


assure that we continue to move forward with best practices that
may be useful to other regions which will assure compliance with
the PAR and other requirements of our contracts without adverse
impact on service delivery to our clients.




                               A-2

                   REVIEW OF FEDERAL ACQUISITION SERVICE'S

                           CLIENT SUPPORT CENTER

                         SOUTHEAST SUNBELT REGION

                      REPORT NUMBER A090139/Q/4/P10004


                                  DISTRIBUTION LIST


                                                                   Copies
Regional Commissioner, Southeast Sunbelt Region (4Q)                 3
Acting Commissioner, Federal Acquisition Service (Q)                 1
Internal Control and Audit Division (BEl)                            1
Assistant Inspector General for Auditing (JA, JAO)                   2
Assistant Inspector General for Investigations (JI)                  1
Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                            B-1

